                               U.S. Department of Justice
                          Office of the Inspector General
                                            Audit Division




    Audit Report

   Independent Evaluation
       Pursuant to the
   Government Information
     Security Reform Act
      Fiscal Year 2002

The Office of Justice Programs’
 Enterprise Network System




       October 2002

           03-01
          INDEPENDENT EVALUATION PURSUANT TO THE
        GOVERNMENT INFORMATION SECURITY REFORM ACT
                     FISCAL YEAR 2002

                  THE OFFICE OF JUSTICE PROGRAMS’
                    ENTERPRISE NETWORK SYSTEM

                 OFFICE OF THE INSPECTOR GENERAL
                    COMMENTARY AND SUMMARY

      The Office of Justice Programs (OJP) is a federal agency within the
Department of Justice (Department). Specifically, the OJP’s mission is to
develop the nation's capacity to prevent and control crime, improve the
criminal and juvenile justice systems, increase knowledge about crime and
related issues, and assist crime victims. The OJP's senior management team
is comprised of the Assistant Attorney General (AAG), the Deputy Assistant
Attorney General (DAAG), and five bureau heads.

        The Enterprise Network System (ENS) is the overall general support
system that provides enterprise-wide information infrastructure services in
support of the OJP mission. The ENS provides storage, processing, and
transmission of a large variety of the OJP accounting and administrative
information. Mission and administrative support functions of the OJP rely
extensively on the availability of the ENS and the access it provides to
facilitate the OJP program participation and efficient financial management
operations. All information on the ENS is considered sensitive but
unclassified.

       The Office of the Inspector General (OIG) selected the OJP as one of
five sensitive but unclassified systems to review pursuant to the Government
Information Security Reform Act (GISRA) for the fiscal year (FY) 2002. The
OIG was required by GISRA to perform an independent evaluation of the
Department’s information security program and practices. This report
contains the results of the ENS audit. Separate reports will be issued for
each of the other systems evaluated pursuant to GISRA, including three
systems that process classified information.

      Under the direction of the OIG and in accordance with Government
Auditing Standards, PricewaterhouseCoopers LLP (PwC) was selected to
perform the ENS audit. The audit took place from May through July 2002
and consisted of interviews, on-site observations, and reviews of
Department and component documentation to assess the ENS’s compliance



                                    -i–
with GISRA and related information security policies, procedures, standards,
and guidelines.1

      During our review of the ENS, KPMG LLP (KPMG) was performing an
audit of the ENS security controls in support of the fiscal year 2002 financial
statement audit. GISRA mandates (as part of the Paperwork Reduction Act)
that the OIG and its contractors rely whenever possible on work performed
by other reviewers for its GISRA audits, so as not to duplicate efforts. To
avoid duplication, PwC limited its role to reviewing management and
operational controls and relied on the testing of technical controls performed
by KPMG.

      PwC’s testing did not identify any areas where additional work was
required or where there appeared to be any inconsistency with the
conclusions reached by KPMG. Therefore, for the vulnerabilities noted in this
report, we2 are not providing recommendations. Instead, we are
consolidating and reporting the recommendations in the OIG's financial
statement FY 2002 report to simplify tracking of recommendations and
corrective actions.3

      Based on PwC’s and KPMG’s assessments, we assessed management,
operational, and technical controls at a medium to high risk to the protection
of the ENS from unauthorized use, loss, or modification. Specifically, the
auditors identified vulnerabilities in 7 of the 17 control areas. Two of the
seven vulnerabilities were identified as high risks to the protection of the
ENS as indicated in the following chart.




1
    In a September 1997 audit, report number 97-26, the OIG recommended that the Department develop effective
    computer security program guidance. The Department then revised its policy and released DOJ Order 2640.2D,
    “Information Technology Security,” in July 2001, which was used in the analysis of this year's review.

2
    In this report, "we" refers either to the OIG or to PwC working under the direction of the OIG. With respect to the
    discussion of technical controls, "we" also encompasses the work performed by KPMG under the direction of the
    OIG.

3
    At the time of our audit, the financial statement audit report had not been issued.


                                                         - ii –
                                                        4                            VULNERABILITIES
                               CONTROL AREAS
                                                                                         NOTED
          Management Controls
          1.      Risk Management
          2.      Review of Security Controls
          3.      Life Cycle                                                                     √
          4.      Authorize Processing
                 (Certification and Accreditation)
          5.      System Security Plan                                                           √
          Operational Controls
          6.     Personnel Security                                                              √
          7.     Physical and Environmental Protection
          8.     Production, Input/Output Controls
          9.     Contingency Planning                                                            √
          10.    Hardware and Systems Software Maintenance
          11.    Data Integrity
          12.    Documentation
          13.    Security Awareness, Training, and Education                                     √
          14.    Incident Response Capability
          Technical Controls
          15. Identification and Authentication                                                 √*
          16. Logical Access Controls                                                           √*
          17. Audit Trails
        Source: The OIG’s FY 2002 GISRA audit of ENS

                √* Significant vulnerability in which risk was noted as high. A high-risk vulnerability is
                   defined as one where extremely grave circumstances can occur by allowing a remote
                   or local attacker to violate the security protection of a system through user or root
                   account access, gaining complete control of a system and compromising critical
                   information.

      As a result of this audit, we identified the following vulnerabilities:

      •    Service request (SR) changes were made without proper management
           review.




4
    Control Areas as described in National Institute of Standards and Technology (NIST) Special Publication (SP)
    800-26 “Security Self- Assessment Guide for Information Technology Systems.”


                                                            - iii –
   •   System security plans, operating procedure guides, the organizational
       chart, and system configuration management guides were not updated
       to reflect current conditions.

   •   User authentication policies and procedures were not effectively
       enforced.

   •   The contingency plan was not updated or tested.

   •   ENS personnel were not always trained on emergency procedures and
       the procedures were not always distributed to staff.

   •   Password security controls were not enforced because of ineffective
       communication of the OJP policies and procedures.

   •   Workstation area security was inadequate.

       We concluded that these vulnerabilities occurred because the OJP
management did not fully develop, enforce, or formalize agency-wide
policies in accordance with current Department policies and procedures.
Additionally, the Department did not enforce its security policies and
procedures in the certification and accreditation process to ensure the ENS is
protected from unauthorized use, loss, or modification. If not corrected,
these security vulnerabilities threaten the ENS and its data with the potential
for unauthorized use, loss, or modification.




                                     - iv –
                                    TABLE OF CONTENTS

                                                                                            Page

OBJECTIVE, SCOPE, AND METHODOLOGY ........................................... 1

ENTERPRISE NETWORK SYSTEM (ENS) ENVIRONMENT......................... 2

SUMMARY RESULTS OF THE AUDIT .................................................... 3

FINDINGS ...................................................................................... 4

I.   Management Controls ................................................................ 4
      A. Life Cycle ......................................................................... 4
      B. System Security Plan .......................................................... 5

II. Operational Controls................................................................... 6
     A. Personnel Security ............................................................. 7
     B. Contingency Planning ........................................................ 8
     C. Security Awareness, Training, and Education........................ 11

III. Technical Controls .................................................................... 13
       A. Identification and Authentication ........................................ 13
       B. Logical Access Controls ..................................................... 15

CONCLUSION .............................................................................. 18

APPENDIX I - NATIONAL INSTITUTE OF STANDARDS AND
             TECHNOLOGY GENERAL CONTROL AREAS .................... 19

APPENDIX II - REPORT STATUS ....................................................... 25
            OBJECTIVE, SCOPE, AND METHODOLOGY

      The fiscal year (FY) 2001 Defense Authorization Act (Public Law
106-398) includes Title X; subtitle G, “Government Information Security
Reform Act” (GISRA). GISRA became effective on November 29, 2000, and
amends the Paperwork Reduction Act of 1995 by enacting a new subchapter
on "Information Security." It requires federal agencies to:

  •   Have an annual independent evaluation of their information security
      and practices performed.
  •   Ensure information security policies are founded on a continuous risk
      management cycle.
  •   Implement controls that assess information security risks.
  •   Promote continuing awareness of information security risks.
  •   Continually monitor and evaluate information security policy.
  •   Control effectiveness of information security practices.
  •   Provide a risk assessment and report on the security needs of the
      agencies’ systems, and include the report in their budget request to
      the Office of Management and Budget (OMB).

      The objective of the audit was to determine the U.S. Department of
Justice’s (Department) compliance with the GISRA requirements. The
Enterprise Network System (ENS) was selected as one of the subset of
systems to be tested to determine the effectiveness of the Department’s
overall security program for FY 2002. At the time of our audit, KPMG LLP
(KPMG) was performing a significant portion of the information security work
required by GISRA as part of the Department’s financial statement audits.
KPMG was contracted to perform this work under the supervision of the OIG.

      In determining if the Department is compliant with GISRA
requirements, we used the collective work of both KPMG and
PricewaterhouseCoopers LLP (PwC) to determine whether adequate
computer security controls existed to protect the ENS from unauthorized
use, loss, or modification. Although this report contains security
vulnerabilities, we are not prescribing recommendations. Instead, we are
consolidating and reporting the recommendations in the OIG's financial
statement FY 2002 report to simplify tracking of recommendations and
corrective actions.




                                     -1-
      We interviewed the OJP management personnel, reviewed system
documentation, and performed testing to determine compliance with the
Office of Justice Programs (OJP) and Department security policies and
procedures. We performed the audit in accordance with Government
Auditing Standards and the audits took place from May through July 2002.
We performed test work at the OJP Headquarters in Washington, D.C.

      For the interviews conducted, we used the questionnaire contained in
the National Institute of Standards and Technology (NIST) Special
Publication 800-26 “Security Self-Assessment Guide for Information
Technology Systems.” This questionnaire contains specific control objectives
and suggested techniques against which the security of a system or group of
interconnected systems can be measured. The questionnaire contains 17
areas under 3 general controls (management, operational, and technical).
The areas contain 36 critical elements and 225 supporting security control
objectives and techniques (questions) about the system. The critical
elements are derived primarily from OMB Circular A-130 and are integral to
an effective IT security program. The control objectives and techniques
support the critical elements. If a number of the control objectives and
techniques are not implemented, the critical elements have not been met.

      The audit approach was based on the General Accounting Office’s
Federal Information System Controls Audit Manual, the Chief Information
Officer Council Framework, OMB Circular A-130, and guidance established by
NIST. These authorities prescribe a review that evaluates the adequacy of
management, operational, and technical controls over control areas listed in
Appendix I.

ENTERPRISE NETWORK SYSTEM (ENS) ENVIRONMENT

      The OJP’s Corporate Network, also known as the ENS, was selected by
the OIG in consultation with Department management as one of the subset
of systems to be tested to determine the effectiveness of the Department’s
overall security program for FY 2002. The ENS supports the information
processing needs of more than 800 OJP employees and over 600 contract
employees. The ENS network is a client/server network, and consists of a
variety of network platforms including Novell Netware, Windows NT, and
UNIX.

      The ENS infrastructure consists of the Private Network and the Public
Services Network. The Private Network provides maximum security
safeguards for the OJP’s most valuable systems and services by providing
access only to OJP personnel. The Public Services Network provides

                                     -2-
restricted interoperability with the public through significant security
safeguards.

      The ENS is physically housed in Washington, D.C., and is the general
support system that provides enterprise-wide communication infrastructure
services in support of the OJP mission. The information stored, processed,
and transmitted on the ENS is sensitive but unclassified (SBU) information.
The ENS contains government business and financial information that, if
disclosed to unauthorized sources, could result in financial loss or adverse
legal actions to the OJP.

SUMMARY RESULTS OF THE AUDIT

       We obtained audit evidence to determine whether adequate computer
security controls existed to protect the OJP network from unauthorized use,
loss, or modification. We assessed management, operational, and technical
controls for 17 critical areas as a medium to high risk for the ENS. Our
assessment disclosed vulnerabilities within 7 of the 17 areas. Two of the
seven vulnerabilities were within technical controls and were identified as
high risks to the protection of the OJP network. For the vulnerabilities noted
in this report, we are not providing recommendations. Instead, we will
consolidate and report the recommendations in the OIG's financial statement
FY 2002 report to simplify tracking of recommendations and corrective
actions.

       We concluded that these vulnerabilities occurred because the OJP
management did not fully develop, enforce, or formalize agency-wide
policies in accordance with current Department policies and procedures.
Additionally, the Department did not enforce its security policies and
procedures in the Certification and Accreditation process to ensure the ENS
network was protected from unauthorized use, loss, or modification. If not
corrected, these security vulnerabilities threaten the ENS and its data with
the potential for unauthorized use, loss, or modification.




                                       -3-
                                      FINDINGS

       Our review disclosed that security controls need improvement to fully
protect the ENS from unauthorized use, loss, or modification. Specifically,
vulnerabilities were identified in the following areas: life cycle controls;
system security planning; personnel security; security awareness, training,
and education; contingency planning; identification and authentication; and
logical access controls. These vulnerabilities occurred because the OJP
management did not enforce or formalize agency-wide and Department-level
policies and procedures to fully secure the system.

I.   Management Controls. Management controls are techniques and
     concerns that are normally addressed by management in the
     organization’s computer security program. In general, they focus on
     the management of the computer security program and the risk within
     the organization.

                                                     Vulnerabilities
               Management Controls
                                                          Noted
         Risk Management
         Review of Security Controls
         Life Cycle                                          √
         Authorize Processing
        (Certification and Accreditation)
        System Security Plan                                 √

      Our testing confirmed that management controls were adequate in the
areas of risk management, review of security controls, and authorize
processing. However, we found vulnerabilities in the following management
control areas:

A. Life Cycle. Security is an important part of the system life cycle, and
   security is best managed if planned for the entire system life cycle.
   There are many models for the system life cycle, but most contain five
   basic phases: initiation, development/acquisition, implementation,
   operation, and disposal.




                                            -4-
Issue: Service Request

Condition:

We found that the only service request (SR) change submitted during the FY
was moved into production without appropriate approval from the
Configuration Management manager. In addition, the OJP staff does not
follow the OJP’s configuration management policies on approval signatures.

Cause:

The OJP staff does not consider this signature a priority and does not enforce
the requirement because other signatures (such as a requester's
supervisor’s signature and completion signature) are required and obtained
before changes are moved into production.

Criteria:

The “OJP System Configuration Management Guide,” dated
November 12, 1999, requires the Configuration Management manager’s
approval for software changes.

Risk:

Without the appropriate approval signatures, code may enter the production
environment without proper management review. This increases the risk
that code may malfunction or cause damage to the OJP systems or
information in the production environment.

B. System Security Plan. A system security plan provides an overview of
   the security requirements of the system and describes the controls in
   place or planned for meeting those requirements. The plan delineates
   responsibilities and expected behavior of all individuals who access the
   system.




                                     -5-
Issue: Outdated Documentation

Condition:

The ENS system security plan, operating procedure guides, the
organizational chart, and system configuration management guides have not
been updated since December 15, 2000, to reflect current conditions at the
OJP for FY 2002. The OJP policies, procedures, and guides refer to the
Information Resource Management Division (IRMD) rather than the newly
formed Office of the Chief Information Officer.

Cause:

The re-organizational change from the IRMD to the Office of the Chief
Information Officer has not been incorporated in the OJP’s official
documents.

Criteria:

NIST Special Publication (SP) 800-18, “Guide for Developing Security Plans
for Information Technology Systems,” Section 3.2.2 – Responsible
Organization, requires that the OJP “list the federal organizational sub-
component responsible for the system.”

NIST SP 800-18, Section 3.2.4 – Assignment of Security Responsibility,
states: “an individual must be assigned responsibility in writing to ensure
that the application or general support system has adequate security.”

Risk:

Outdated documentation could lead to confusion as to the current status and
responsibilities of key individuals at the OJP.

II.     Operational Controls. Operational controls address security controls
        that are implemented and executed by people. These controls are put
        in place to improve the security of a particular system. They often
        require technical or specialized expertise and rely upon management
        activities as well as technical controls.




                                     -6-
                                                       Vulnerabilities
                Operational Controls
                                                            Noted
         Personnel Security                                    √
         Physical and Environmental Protection
         Production, Input/Output Controls
         Contingency Planning                                  √
         Hardware and Systems Software Maintenance
         Data Integrity
         Documentation
         Security Awareness, Training, and Education           √
         Incident Response Capability


       Our testing confirmed that operational controls were adequate within
the areas of physical and environmental protection; production, input/output
controls; hardware and systems software maintenance; data integrity;
documentation; and incident response capability. However, our testing
identified vulnerabilities within other critical areas of operational controls.
The specific details of the identified vulnerabilities are listed below.

A. Personnel Security. Personnel security involves the use of computer
   systems by human users, designers, implementers, and managers. A
   broad range of security issues relates to how these individuals interact
   with computers and the access and authorities they need to do their
   jobs.

Issue: Policy and Procedures

Condition:

Documentation to support compliance with the OJP remote user
authorization policies and procedures does not exist. Specifically, we noted
the following weaknesses:

   •   Two out of 15 users did not have documentation on file supporting the
       approval of access to related OJP systems;

   •   Nine out of 15 remote users have not signed the “Secure-UserID” form
       required by the OJP for remote user authorization; and

   •   Three out of 15 users did not have documentation on file supporting
       their termination from related OJP systems.



                                        -7-
Cause:

The policies and procedures within the OJP Security Operating Procedures
Guide (SOPG) have not been enforced. Specifically, methods unrelated to
policy are used by the OJP management to expedite their user
authentication. For example, e-mail or verbal confirmation have been used
rather than methods compliant with the policies set forth by the OJP SOPG.

Criteria:

“Office of Justice Programs, Security Operating Procedures Guide (SOPG),”
Section 3.1.1 – User Account Authorization, requires the following:

  •     Requests for dial-in access will be submitted, in writing, to the
        Computer System Security Officer (CSSO) and have approval from the
        Bureau/Office head.

  •     Authorized users will receive a SecureID key from the contractor.

  •     Users must sign a SecureID receipt and are responsible for
        safeguarding the SecureID key.

  •     Users must attend one-on-one orientation with the Network
        Communications Administrator.

Risk:

Without effective enforcement of user authentication policies and
procedures, the authorization process may be circumvented, resulting in an
individual obtaining remote access without proper authorization or
justification.

B. Contingency Planning. Contingency planning ensures continued
   operations by minimizing the risk of events that could disrupt normal
   operations and having an approach in place to respond to those events
   should they occur.




                                      -8-
Issue: Backup and Service Continuity

Condition:

The following weaknesses were identified to the OJP’s backup and service
continuity procedures:

   •    Oracle backup tapes are not sent to the off-site facility on a weekly or
        bi-weekly basis.

   •    The contingency plan does not call for a backup site.

   •    Performance goals have not been established for server availability
        therefore causing contractors to overlook server availability.

Cause:

The Oracle contractors are not following the OJP procedure to ship backup
tapes to the off-site facility either weekly or bi-weekly. The Office of the
Chief Information Officer has not recognized the need to provide server
availability goals for the contractors responsible for maintaining server
availability. In addition, the contractors do not monitor server availability on
a long-term basis, since they do not have formal guidelines from the OJP on
the acceptable level of downtime.

Criteria:

OJP’s Automated Information System Security Plan for the Enterprise
Network System, dated December 15, 2000, Section 4.4 - Contingency
Planning, requires that at the end of the week, all incremental tapes and the
full (weekly) backup tape be stored off-site.

Risk:

Backup tapes of critical Oracle data may be lost in the event that a disaster
occurs at the OJP facility. In the event that the OJP loses its on-site data
from the Oracle servers, the OJP would not be able to replace valuable
information.

Because server availability is not monitored adequately, the contractors and
the OJP staff might not recognize a long-term degradation in server
performance levels in time to effectively address the problem.



                                        -9-
Issue: Contingency Plan

Condition:

   •   The plan has not been updated since FY 2000.

   •   OJP staff have not been trained on the plan nor has the plan been
       distributed to the staff.

   •   The plan does not specify the length of time before operations should
       resume.

   •   The plan does not have formal test procedures or polices in place for
       testing.

Cause:

According to OJP management, the Office of the Chief Information Officer
has not had the resources (staff and budget) to update the contingency plan
since FY 2000. The Office of the Chief Information Officer does not see the
benefit in distributing the existing plan due to its length. Thus, staff were
not trained on the current contingency plan. Additionally, the contingency
plan does not establish specific timelines because the developers of the plan
wanted to keep the plan vague. Finally, the Office of the Chief Information
Officer believes that occasional accidents, such as server outages or
inclement weather problems, serve as the test of the contingency plan. The
Office of the Chief Information Officer does not perform additional tests of
the contingency plan.

Criteria:

OMB Circular A-130, Appendix III, Security of Federal Automated
Information Systems, states: “Agency plans should assure that there is an
ability to recover and provide service sufficient to meet the minimal needs of
users of the system.”

NIST SP 800-14, Generally Accepted Principles and Practices for Securing
Information Technology Systems, Section 3.6.5 – Test and Revise Plan,
requires that an organization test and revise the contingency plan.
Additionally, NIST requires that the organization update the plan since it will
become outdated as time passes and as the resources used to support
critical functions change.



                                     -10-
DOJ Order 2640.2D, Information Technology Security, Chapter 1, Section 9,
Contingency Planning/Business Resumption Planning requires components
test contingency/business resumption plans annually or as soon as possible
after a significant change to the environment that would alter the in-place
assessed risk.

NIST SP 800-12, Section 11 – Preparing for Contingencies and Disasters
states: “Contingency planning involves more than planning for a move
offsite after a disaster destroys a data center. It also addresses how to keep
an organization's critical functions operating in the event of disruptions, both
large and small. This broader perspective on contingency planning is based
on the distribution of computer support throughout an organization.”

NIST SP 800-14, Section 3.6.2 – Identify Resources, states: “Time Frame
Needed. In addition, an organization should identify the time frames in
which each resource is used and the effect on the mission or business of the
continued unavailability of the resource.”

Risk:

During an extended outage and/or disaster, information system processing
functions and vital business operations may be damaged and unable to
function. Without a comprehensive business continuity plan, the OJP could
face potentially critical financial data losses in the event of a disaster.
Testing is one of the most important functions in maintaining a viable
disaster recovery plan. It is through testing that weaknesses in the plan are
uncovered and can be corrected. Testing should be performed to ensure
that critical information for continued operations is not lost due to a failure
to fully identify information technology recovery needs during a disaster.

C. Security Awareness, Training, and Education. People are a crucial
   factor in ensuring the security of computer systems and valuable
   information resources. Security awareness, training, and education
   enhance security by improving awareness of the need to protect system
   resources. Additionally, training develops skills and knowledge so
   computer users can perform their jobs more securely.




                                     -11-
Issue: Emergency Procedures

Condition:

From interviews with the OJP management and staff regarding the OJP’s
emergency procedures, we noted the following:

   •    Staff members have not been trained on emergency procedures.

   •    Emergency procedures have not been distributed to the staff.

Cause:

The Office of Administration considers the bi-annual fire drills adequate
training on emergency procedures. Key individuals are trained monitors for
each floor and are responsible for ensuring that everyone is evacuated in the
event of an emergency. According to the OJP management, the Emergency
Operations and Occupation Plan are not distributed because the document is
too large.

Criteria:

OMB Circular A-130, states that management should plan for how they will
perform their mission and/or recover from the loss of existing application
support, whether the loss is due to the inability of the application to function
or a general support system failure.

NIST SP 800-12, Section 11 – Preparing for Contingencies and Disasters
states: “Contingency planning involves more than planning for a move
offsite after a disaster destroys a data center. It also addresses how to keep
an organization's critical functions operating in the event of disruptions, both
large and small. This broader perspective on contingency planning is based
on the distribution of computer support throughout an organization.”

Risk:

Without proper training employees may not be adequately prepared to
respond appropriately in the event of an emergency.




                                      -12-
III.   Technical Controls. Technical controls focus on security controls
       that the computer system executes and depend upon the proper
       functioning of the system to be effective. Technical controls require
       significant operational considerations and should be consistent with
       the management of security within the organization.

                                                                      Vulnerabilities
                   Technical Controls
                                                                            Noted
        Identification and Authentication                                      √*
        Logical Access Controls                                                √*
        Audit Trails

        √*Significant vulnerability in which risk was noted as high. A high-risk
           vulnerability is defined as one where extremely grave circumstances
           can occur by allowing a remote or local attacker to violate the security
           protection of a system through user or root account access, gaining
           complete control of a system and compromising critical information.


      During our review of the ENS, KPMG was performing an audit of the
ENS security controls in support of the FY 2002 financial statement audit.
KPMG assessed the technical controls using commercial-off-the-shelf and
proprietary software to conduct network scanning on the ENS. The technical
vulnerabilities reported in this report are KPMG’s results relied upon by PwC.

      As a result of testing ENS’s technical controls, we confirmed that
controls were adequate in the areas of audit trails. Test results identified
high vulnerabilities within critical areas of ENS’s technical controls as listed
below.

A. Identification and Authentication. Identification and authentication
   are technical measures that prevent unauthorized people or processes
   from entering an IT system. Identification, most commonly used for
   access control, is the means by which users claim their identities to a
   system. Authentication is the verification that a person’s claimed
   identity is valid and is usually implemented through the use of
   passwords.

      A password is a unique string of characters that must be provided
before a logon or access is authorized to a computer system. Passwords are
security measures used to restrict logons to user accounts and access to
computer systems and resources. The OJP password controls tested via
network security penetration testing were found to be inadequate.


                                              -13-
Issue: Authentication Controls

Condition:

User authentication controls are not in compliance with policies and
procedures set forth by the OJP password management guidelines.
Specifically, we noted the following instances of weak or non-existent
passwords in place on key business database servers, operating system
accounts, and network devices:

  •   Null session connections to the OJP registered Primary Domain
      Controller.

  •   Default database server account/passwords.

  •   Passwords equal to user name.

  •   Blank passwords.

  •   Default Simple Network Management Protocol (SNMP) community
      strings on network devices.

Cause:

Ineffective communication of the OJP policies and procedures to
administrative staff has created a situation where password security controls
are not enforced. Specifically, we noted numerous instances where
administrators were not aware of the password guidance provided by the
OJP Computer Security Program.

Criteria:

Department of Justice – Office of Justice Programs: Computer System
Password Policy, Section 3, requires that passwords will be used on all
automated information systems to protect systems and system level
accounts, individual accounts, and sensitive information processed or stored
by the systems.

  •   All user and system passwords should be at least eight characters in
      length.




                                    -14-
  •     All user and system passwords should consist of a mix of at least three
        of the following: English uppercase, English lower case, numeric,
        special characters.

  •     Dictionary words, simple keyboard patterns, or character strings, shall
        not be used.

DOJ Order 2640.2D, “Information Technology Security” Chapter 2, Section
18, requires that Department IT systems that use passwords as the means
for authentication shall implement at least the following minimum features:

  •     An eight-character password composed of at least three of the
        following: English uppercase, English lower case, numeric, and special
        characters.

  •     Prevent the use of previous six passwords.

  •     Prevent the display of a clear text password.

  •     Limit password lifetime to a maximum of ninety (90) days.

Furthermore, DOJ Order 2640.2D, Chapter 2, Section 18, states Department
IT systems shall: “disable system default passwords as soon as possible
after system installation and before the system becomes operational.”

Risk:

Poor password security parameters subject critical ENS information to
potential unauthorized accessed and prevent the ENS system administrators
from detecting unauthorized access on a system. Easily guessed passwords
obtained during a brute force attack may compromise the identification and
authentication integrity of the ENS servers.

B. Logical Access Controls. Logical access controls are the system-based
   mechanisms used to designate who or what is to have access to a
   specific system resource and the type of transactions and functions that
   are permitted.




                                      -15-
Issue: Network Devices

Condition:

The OJP did not enforce technical controls to achieve optimal workstation
security resulting in the use of unauthorized network devices within the OJP
facility. Specifically, we found:

  •   Active network ports in vacant cubicles.

  •   No password-protected screensavers for unattended terminals.

  •   Warning banners not displayed upon login.

Cause:

Controls to enforce workstation security, as specified in the OJP SOPG, have
not been effectively communicated to OJP system users. For example, the
Dynamic Host Configuration Protocol (DHCP) server responds to DHCP client
requests; however, an unattended workstation with an active drop can be
used by any user and computer recognized by the network servers.

Criteria:

“Department of Justice – Office of Justice Programs: Enterprise Security
Network Security Operating Procedures Guide (SOPG),” Section 4.7.4 –
Workstation Area Security, requires the following:

  •   Access controls must be enabled to provide security to limit access to
      only authorized individuals.

  •   Users must ensure a screen saver is enabled with password protection
      when leaving their workstation for a period of time.

DOJ Order 2640.2D, “Information Technology Security,” Chapter 2, Section
20 - Warning Banner, requires “all Department IT systems implement a
system banner that provides warnings: to employees that accessing the
system constitutes consent to system monitoring for law enforcement and
other purposes; and to unauthorized users that their use of the system may
subject them to criminal prosecution and/or criminal or civil penalties.”




                                    -16-
Risk:

Inadequate workstation area security may allow an unauthorized user to use
an unattended workstation to gain access to network resources by allowing
the unauthorized user to view sensitive data that was not properly secured
using a screen saver. In addition, unauthorized full network access may be
gained by connecting a computer directly to an active network drop.

Issue: Denial of Service

Condition:

We used an automated vulnerability scanner, NESSUS, to detect possible
exploitable weaknesses associated with the OJP’s public web servers. We
noted that one web server is vulnerable to a possible “denial-of-service”
(DOS) attack, and one web server discloses various parts of its directory
structure. A "denial-of-service" attack is characterized by an explicit
attempt by attackers to prevent legitimate users of a service from using that
service. Examples include, attempts to "flood" a network, thereby
preventing legitimate network traffic, and attempts to disrupt connections
between two machines, thereby preventing access to a service.

Cause:

The identified web servers have not been updated to address the latest
vulnerabilities.

Criteria:

OMB Circular A-130, Appendix III, “Security of Federal Automated
Information Resources,” states: “in every general support system, a
number of technical, operational, and management controls are used to
prevent and detect harm. Such controls include individual accountability,
“least privilege,” and separation of duties.

Individual accountability consists of holding someone responsible for his/her
actions. In a general support system, accountability is normally
accomplished by identifying and authenticating users of the system and
subsequently tracing actions on the system to the user who initiated them.
Least privilege is the practice of restricting a user’s access (to data files, to
processing capability, or to peripherals) or type of access (read, write,
execute, delete) to the minimum necessary to perform his job.”


                                      -17-
Risk:

The current vulnerabilities allow an attacker to perform DOS attacks that
could potentially shut down the ENS web server. Additionally, by requesting
the “robot.txt” file, the attacker can ascertain the directory structure on the
web server and modify information.

CONCLUSION

       Our review disclosed that security controls need improvement to fully
protect the ENS from unauthorized use, loss, or modification. Specifically,
we found vulnerabilities in the areas of life cycle controls, system security
planning; personnel security; contingency planning; security awareness,
training, and education; identification and authentication; and logical access
controls. We assessed these vulnerabilities as a medium to high risk to the
ENS. If not corrected, these security vulnerabilities threaten the data stored
on the ENS with the potential for unauthorized use, loss, or modification.




                                     -18-
                                                             APPENDIX I

       NATIONAL INSTITUTE OF STANDARDS AND TECHNOLOGY
                   GENERAL CONTROL AREAS

     The review focused on evaluating the adequacy of management,
operational, and technical controls over the following specific control areas:

I. MANAGEMENT CONTROLS. Management controls focus on the
management of the IT security system and the management of risk for a
system. They are techniques and concerns that are normally addressed by
management.

   •   Risk Management. Risk is the possibility of something adverse
       happening. Risk management is the process of assessing risk, taking
       steps to reduce risk to an acceptable level, and maintaining that level
       of risk. Assessing risk management involves evaluating OJP’s efforts
       to complete the following critical procedures:

         o Periodic performance of a system risk assessment had been
           performed.
         o Program officials understand the risk to systems under their
           control and had determined the acceptable level of risk.

   •   Review of Security Controls. Routine evaluations and response to
       identified vulnerabilities are important elements of managing security
       controls of a system. Determining whether review of security
       controls had been adequately performed requires the auditor to
       assess if the following critical items were completed:

         o A system security control review had been performed for both
           the ENS and interconnected systems.
         o Management ensured effective implementation of corrective
           actions.

   •   Life Cycle. Like other aspects of an IT system, security is best
       managed if planned for throughout the IT system life cycle. There
       are many models for the IT system life cycle but most contain five
       basic phases: initiation, development/acquisition, implementation,
       operation, and disposal. Assessing a system’s life cycle involves
       identifying if the following critical items are in place for the ENS:

         o A system development life cycle methodology.

                                     -19-
         o System change controls as programs progress through testing to
           final approval.

   •    Authorize Processing (Certification and Accreditation).
        Authorize processing (also referred to as certification and
       accreditation) provides a form of assurance of the security of the
       system. To determine whether the ENS had been appropriately
       authorized to process data involves analyzing critical documents that
       identify whether:

         o The system had been certified/recertified and authorized to
           process (accredited).
         o The system is operating on an interim authority in accordance
           with specified agency procedures.

   •   System Security Plan. A system security plan provides an
       overview of the security requirements of the system and describes
       the controls in place or planned for meeting those requirements. The
       plan delineates responsibilities and expected behavior of all
       individuals who access the system. Assessing whether the ENS has
       an adequate system security plan requires identifying if the following
       critical elements were met:

         o A system security plan had been documented for the system and
           all interconnected systems if the boundary controls are
           ineffective.
         o The plan is kept current.

II. OPERATIONAL CONTROLS. Operational controls address security
controls that are implemented and executed by people. These controls are
put in place to improve the security of a particular system. They often
require technical or specialized expertise and rely upon management
activities as well as technical controls.

   •   Personnel Security. Many important issues in computer security
       involve human users, designers, implementers, and managers. A
       broad range of security issues relates to how these individuals
       interact with computers and the access and authorities they need to
       do their jobs. Assessing personnel security involves evaluating the
       OJP efforts to complete the following critical procedures:

         o Duties are separated to ensure least privilege and individual
           accountability.

                                    -20-
     o Appropriate background screening is completed.

•   Physical and Environmental Protection. Physical security and
    environmental security are the measures taken to protect systems,
    buildings, and related supporting infrastructures against threats
    associated with their physical environment. Assessing physical and
    environmental protection involves evaluating OJP’s efforts to
    complete the following critical procedures:

     o Adequate physical security controls have been implemented and
       are commensurate with the risks of physical damage or access.
     o Data is protected from interception.
     o Mobile and portable systems are protected.

•   Production, Input/Output Controls. There are many aspects to
    supporting IT operations. Topics range from a user help desk to
    procedures for storing, handling and destroying media. Assessing
    production, input/output controls involves evaluating the OJP efforts
    to complete the following critical procedures:

     o User support is being provided to ENS users.
     o Media controls are in place for the ENS.

•   Contingency Planning. Contingency planning ensures continued
    operations by minimizing the risk of events that could disrupt normal
    operations and having an approach in place to respond to those
    events should they occur. Assessing contingency planning involves
    evaluating OJP’s efforts to complete the following critical procedures:

     o Identify the most critical and sensitive operations and their
       supporting computer resources.
     o Develop and document a comprehensive contingency plan.
     o Have tested contingency/disaster recovery plans in place.

•   Hardware and System Software Maintenance. These are
    controls used to monitor the installation of, and updates to, hardware
    and software to ensure that the system functions as expected and
    that a historical record is maintained of changes. Some of these
    controls are also covered in the Life Cycle Section. Assessing
    hardware and system software maintenance involves evaluating
    OJP’s efforts to complete the following critical procedures:




                                 -21-
     o Access is limited to system software and hardware.
     o All new and revised hardware and software are authorized,
       tested, and approved before implementation.
     o Systems are managed to reduce vulnerabilities.

•   Data Integrity. Data integrity controls are used to protect data
    from accidental or malicious alteration or destruction and to provide
    assurance to the user that the information meets expectations about
    its quality and integrity. Assessing data integrity involves evaluating
    OJP’s efforts to complete the following critical procedures:

     o Virus detection and elimination software is installed and
       activated.
     o Data integrity and validation controls are used to provide
       assurance that the information has not been altered and the
       system functions as intended.

•   Documentation. The documentation contains descriptions of the
    hardware, software, policies, standards, procedures, and approvals
    related to the system and formalize the system’s security controls.
    Assessing documentation involves evaluating OJP’s efforts to
    complete the following critical procedures:

     o There is sufficient documentation that explains how
       software/hardware is to be used.
     o There are documented formal security and operational
       procedures.

•   Security Awareness, Training, and Education. People are a
    crucial factor in ensuring the security of computer systems and
    valuable information resources. Security awareness, training, and
    education enhance security by improving awareness of the need to
    protect system resources. Additionally, training develops skills and
    knowledge so computer users can perform their jobs more securely
    and builds in-depth knowledge. Assessing security awareness,
    training, and education involves evaluating OJP’s efforts to complete
    the following critical procedures:

     o Employees have received adequate training to fulfill their
       security responsibilities.




                                 -22-
   •   Incident Response Capability. Computer security incidents are an
       adverse event in a computer system or network. Such incidents are
       becoming more common and their impact is far-reaching. The
       following questions are organized according to two critical elements.
       Assessing incident response capability involves evaluating OJP’s
       efforts to complete the following critical procedures:

        o There is a capability to provide help to users when a security
          incident occurs in the system.
        o Incident-related information is shared with appropriate
          organizations.

III. TECHNICAL CONTROLS. Technical controls focus on security controls
that the computer system executes and depend upon the proper functioning
of the system to be effective. Technical controls require significant
operational considerations and should be consistent with the management of
security within the organization.

   •   Identification and Authentication. Identification and
       authentication is a technical measure that prevents unauthorized
       people or processes from entering an IT system. Access control
       usually requires that the system be able to identify and differentiate
       among users. Authentication is verification that a person’s claimed
       identity is valid and it is usually implemented through the use of
       passwords. Assessing identification and authentication involves
       evaluating OJP’s efforts to complete the following critical procedures:

        o Users are individually authenticated via passwords and other
          devices.
        o Access controls are enforcing segregation of duties.

   •   Logical Access Controls. Logical access controls are the system-
       based mechanisms used to designate who or what is to have access
       to a specific system resource and the type of transactions and
       functions that are permitted. Assessing logical access controls
       involves evaluating OJP’s efforts to complete the following critical
       procedures:

        o Logical access controls restrict users to authorized transactions
          and functions.
        o There are logical controls over network access.




                                    -23-
     o There are controls implemented to protect the integrity of the
       application and the confidence of the public when the public
       accesses the system.

•   Audit Trails. Audit trails maintain a record of system activity by
    system or application processes and by user activity. In conjunction
    with appropriate tools and procedures, audit trails can provide
    individual accountability, a means to reconstruct events, detect
    intrusions, and identify problems. Assessing audit trails involves
    evaluating OJP’s efforts to complete the following critical procedures:

     o Activity involving access to and modification of sensitive or
       critical files is logged, monitored, and possible security violations
       are investigated.




                                 -24-
                                                             APPENDIX II

                              REPORT STATUS

      For the vulnerabilities noted in this report, as previously discussed, we
are not providing separate recommendations. Instead, we will consolidate
and report the recommendations in the OIG's financial statement FY 2002
report to simplify tracking of recommendations and corrective actions.
Therefore, this report is closed.




                                     -25-
